 OFFICE OF INSPECTOR GENERAL




Review of the Commission’s Time Keeping
  Practices Regarding Federal Holidays




      Inspection Report IG-06-99




                              Date: September 3, 1999
                                                                             Inspection Report-06-99




I. BACKGROUND

This inspection reviewed the United States International Trade Commission’s (Commission)
timekeeping practices regarding holidays for employees working Compressed Work Schedules
(CWS). The Office of Inspector General (OIG) found that the Commission’s Directive and resulting
timekeeping practices did not conform to federal statutes and regulations. OIG evaluated whether
Commission employees on CWS would have been entitled to additional hours for holidays by
applying the proper federal rules in- lieu-of an existing Commission Directive and policy.1 As a
result, OIG determined most employees working a CWS were entitled to 1 to 4 hours of holiday time
for the five holidays reviewed. In total, 142 Commission employees were entitled to 389 additional
hours.



               Number of Employees by Number of Holiday Hours Owed



                                10                   11
                                7.0%                 7.7%


                                                                     25
                                                                     17.6%

                                                                                1 Hour
                                                                                2 Hours
                                                                                3 Hours
                                                                                4 Hours



                      96
                      67.6%




       1
       The Commission is currently working on a directive (Draft Directive 4400.1, Attendance
and Leave) to cure the issues identified in this report.


                                                    1
                                                                                   Inspection Report-06-99




II. SCOPE

In conducting this inspection, the OIG reviewed the following laws, regulations and directives:

        •        5 U.S.C. §§ 6120 et seq (Flexible and Compressed Work Schedules);
        •        31 U.S.C. §3702 (Authority to Settle Claims);
        •        5 C. F.R. §§ 610.401 - 610.408 (Flexible and Compressed Work Schedules);
        •        5 C.F.R. §178.104 (Statutory Limitations on Claims);
        •        USITC Directive 2201.1, Time, Attendance and Payroll Services Handbook, dated
                 September 18, 1992;
        •        USITC Directive 4400.1, Attendance and Leave, Draft dated February 18, 1999; and
        •        Federal Personnel Payroll System, Time and Attendance (T&A) Pay Codes Manual
                 (U.S. Department of Interior, dated January 1998).

OIG requested and received from all Commission timekeepers copies of the work schedules and time
card printouts for pay periods 1, 3, 5, and 12 of 1999 of 152 Commission employees on CWS.

                                      Period   Holiday

                                      1        Christmas Day/New Year’s Day

                                      3        Martin Luther King Jr.’s Birthday

                                      5        George Washington’s Birthday

                                      12       Memorial Day


These particular pay periods were reviewed because these pay periods included this year’s holidays.2
Thus, all of the records of Commission employees working CWS were reviewed in accordance with
applicable federal rules and statutes to determine if employees were entitled to additional holiday
hours.3




        2
          July 4 Independence Day in pay period 15 was not reviewed because it occurred after OIG began this
Inspection.

        3
          Since OIG suggests restoring hours to employees, to avoid an appearance of a conflict of
interest, OIG employees who were working CWS were excluded from this review.


                                                         2
                                                                         Inspection Report-06-99




III. APPLICABLE RULES

The Commission’s authority to use CWS is found in 5 U.S.C. §§ 6120 et seq. Further, Office of
Personnel Management (OPM) provides further guidance at 5 C. F. R. §§ 610.401- 610.408. A CWS
for a full-time employee is “an 80-hour biweekly basic work requirement which is scheduled for less
than 10 workdays.”4 Examples of CWS schedules include:5

       •       5/4/9 - 9 hours a day for 8 days, 8 hours 1 day, and one day off each pay period; and

       •       4-10's - 10 hours a day for 4 days a week and two days off each pay period.

Federal regulations provide that full-time CES employees on holidays are “entitled to basic pay for
the number of hours of the compressed work schedule on that day.”6 These regulations have been
in effect since 1983. Additionally, where a holiday falls on non-workday, a full-time CWS employee
is entitled to an in-lieu-of day for that holiday.

In contrast, the Directive 2201.1, dated September 18, 1992 7 limits CWS employees to only 8 hours
of holiday time. The directive also provides that for employees working compressed schedules:

               (1) A holiday cannot exceed 8 hours; therefore, employees with a
               scheduled 9 hour day must switch with their scheduled 8 hour day.
               The T&A should show the holiday as 8 regular hours.

               (2) When day off falls on the holiday, employee may choose another
               approved day off ‘in lieu of’ the holiday. This approved day off must
               be within the same pay period as the holiday.8

       4
        5 U.S.C. § 6121(5)(A).
       5
        Federal Personnel Payroll System, T&A Pay Codes Manual (U.S. Department of Interior
January 1998).
       6
        5 C.F.R. § 610.406.
       7
         Note, OPM regulations regarding CWS employees receiving holiday hours for which they
were scheduled
was in effect since 1983. Directive 2201.1 may have improperly relied on 5 U.S.C. § 6124 which
places a 8 hour limit on holiday hours for employees working flexible work schedules.
       8
         Prior to October 17, 1998 this provision was in conflict with 5 U.S.C. § 6103(b), which
required the in-lieu-of holiday be taken on the nearest workday preceding the holiday. On
October 17, 1998 this statute was amended by 5 U.S.C. §6103(d) which gave the agency head
discretion to prescribe alternate rules regarding the in-lieu-of holiday for employees on CWS
where it is “necessary to do so in order to prevent adverse agency impact.” Id.

                                                 3
                                                                              Inspection Report-06-99

Note this only is being applied to employees on the 5/4/9 schedule, employees working 4/10 schedule
are given the full 10 hours credit for the holiday.



IV. FINDINGS

OIG contacted the Pay and Leave Administration Division, OPM. The Director of the OPM settles
claims involving Federal Civilian employees’ compensation and leave.9 OIG also contacted time
keepers at three other federal agencies to verify OIG application of federal statutes and rules was
consistent with their practices.

OIG found that CWS employees were not obtaining the
proper holiday hours as a result of improper guidance                      Quick Findings
given to the timekeepers. It should be noted that
                                                                  Employees     x Hours       = Totals
timekeepers uniformly applied the guidance issued to
them.                                                                11              1          11

In reviewing all of the timekeeping of CWS employees                 25              2          50
records, many variations exist as to the schedules and               96              3          288
number of hours owed to employees. Therefore, specific
hours calculated as owed to individual CWS employees                 10              4          40
are illustrated in the Appendix. However, outlined below
are two illustrations of how OIG applied the applicable              142                        389
rules and made its calculations.

CWS Employee Works Additional Hour

                  M        T       W       TH          F     M2       T2        W2       TH2         F2
 Scheduled       Off       9        9        9         9      9        9         9        9           8

 Memorial        Off       9        9        9         9     8H        9         9        9           9

       •         Holiday falls on a day employee is scheduled to work 9 hours (M2) and the employee
                 is given only 8 credit hours for the holiday per Directive 2201.1.
       •         On 2nd Friday, employee works 9 hours on a day he or she is scheduled to work 8
                 hours to make up the one-hour shortage on the holiday.
       •         Commission owes employee one hour since the employee was actually entitled to 9
                 hours for the holiday according to 5 C.F.R. § 610.406.




       9
           31 U.S.C. § 3702. Note, a six-year statute of limitations applies to these types of claims.
Id.

                                                   4
                                                                        Inspection Report-06-99




CWS Employee Takes In-Lieu-of and Leave

                M        T       W       TH         F     M2      T2      W2      TH2       F2
 Scheduled     Off       9       9        9         9      9       9        9       9        8

 MLK           8H       Off      9        9         9      9       9        9       9       9A

       •       Holiday falls on the employee’s day off (Monday) and the employee chooses to take
               Tuesday, a scheduled 9-hour day, as in-lieu-of holiday.
       •       Employee is given only 8 credit hours for the holiday per Directive 2201.1.
       •       On 2nd Friday, a scheduled 8-hour day employee takes 9 hours annual leave.
               Employee takes an extra hour of annual leave to make up for the holiday.
       •       Commission owes employee one hour since the employee was actually entitled to 9
               hours for the holiday according to 5 C.F.R. § 610.406.

V. CONCLUSIONS

The OIG found that 142 employees were entitled to a total of 389 hours of compensation for holiday
time and annual leave. The Appendix provides detailed information on these figures.

1) The Commission should apply an appropriate administrative remedy to restore the hours owed
to employees as a result of the Commission’s existing holiday timekeeping practices. (OIG
calculations are contained in the Appendix and should be used as a basis for the period
reviewed.)10

2) The Commission should immediately follow guidance provided by 5 C.F.R. 610.406 in
calculating holiday hours for employees working CWS and instruct timekeepers accordingly.




       10
           Director OFB commented that prior to following this course of action an audit by
Department of Interior (DOI) should be completed. The context of the comment suggests that
OIG application of the appropriate rules is not valid, a view not expressed in comments by other
offices. However, OIG again notes that OPM is the appropriate authority to resolve
compensation and leave issues. DOI may, as the Commission's payroll service provider, be able
to assist the Commission in identifying appropriate pay records and facilitating this course of
action.


                                                5
